<html>
<title> - OVERSIGHT OF FEDERAL POLITICAL ADVERTISEMENT LAWS AND REGULATIONS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


   OVERSIGHT OF FEDERAL POLITICAL ADVERTISEMENT LAWS AND REGULATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         INFORMATION TECHNOLOGY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 24, 2017

                               __________

                           Serial No. 115-42

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  



         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-762 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5334233c13302620273b363f237d303c3e7d">[email&#160;protected]</a>                        
                       
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Trey Gowdy, South Carolina           Jim Cooper, Tennessee
Blake Farenthold, Texas              Gerald E. Connolly, Virginia
Virginia Foxx, North Carolina        Robin L. Kelly, Illinois
Thomas Massie, Kentucky              Brenda L. Lawrence, Michigan
Mark Meadows, North Carolina         Bonnie Watson Coleman, New Jersey
Ron DeSantis, Florida                Stacey E. Plaskett, Virgin Islands
Dennis A. Ross, Florida              Val Butler Demings, Florida
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matt Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     Jimmy Gomez, California
Gary J. Palmer, Alabama
James Comer, Kentucky
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                  Robert Borden, Deputy Staff Director
                    William McKenna General Counsel
                Troy Stock, Subcommittee Staff Director
                         Kiley Bidelman, Clerk
                 David Rapallo, Minority Staff Director
                                 ------                                

                 Subcommittee on Information Technology

                       Will Hurd, Texas, Chairman
Paul Mitchell, Michigan, Vice Chair  Robin L. Kelly, Illinois, Ranking 
Darrell E. Issa, California              Minority Member
Justin Amash, Michigan               Jamie Raskin, Maryland
Blake Farenthold, Texas              Stephen F. Lynch, Masschusetts
Steve Russell, Oklahoma              Gerald E. Connolly, Virginia
                                     Raja Krishnamoorthi, Illinois
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 24, 2017.................................     1

                               WITNESSES

Mr. Allen Dickerson, Legal Director, Center for Competitive 
  Politics
    Oral Statement...............................................     4
    Written Statement............................................     6
Mr. David Chavern, President and Chief Executive Officer, News 
  Media Alliance
    Oral Statement...............................................    15
    Written Statement............................................    17
Mr. Jack N. Goodman, Owner, Law Offices of Jack N. Goodman
    Oral Statement...............................................    20
    Written Statement............................................    22
Mr. Randall Rothenberg, President and Chief Executive Officer, 
  Interactive Advertising Bureau
    Oral Statement...............................................    46
    Written Statement............................................    48
Mr. Ian Vandewalker, Senior Counsel, Brennan Center for Justice, 
  Democracy Program, New York University School of Law
    Oral Statement...............................................    54
    Written Statement............................................    56

                                APPENDIX

Questions for the record for Mr. Chavern, submitted by Chairman 
  Hurd...........................................................    96
Questions for the record for Mr. Goodman, submitted by Chairman 
  Hurd...........................................................    97
Questions for the record for Mr. Rothenberg, submitted by 
  Chairman Hurd..................................................   100

 
   OVERSIGHT OF FEDERAL POLITICAL ADVERTISEMENT LAWS AND REGULATIONS

                              ----------                              


                       Tuesday, October 24, 2017

                  House of Representatives,
            Subcommittee on Information Technology,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:08 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Will Hurd 
[chairman of the subcommittee] presiding.
    Present: Representatives Hurd, Mitchell, Amash, Farenthold, 
Kelly, Raskin, Lynch, Connolly, and Krishnamoorthi.
    Also Present: Representatives Kilmer, Cartwright, and 
Sarbanes.
    Mr. Hurd. The Subcommittee on Information Technology will 
come to order. And without objection, the chair is authorized 
to declare a recess at any time.
    Good afternoon. Today's hearing is part of a series of 
hearings the IT Subcommittee has held to analyze existing laws 
and regulations that may have become obsolete or need updating 
to reflect technological advances. We've held hearings on 
health IT technologies, drones, autonomous vehicles, the 
Internet of Things, and many other issues.
    Today we turn our attention to laws and regulations 
governing political advertisements.
    The Federal Election Commission oversees civil campaign 
finance laws and enforces disclaimer requirements for public 
communications from candidates, campaigns, parties, or 
political action committees related to Federal offices.
    In addition, the FCC enforces additional disclosure and 
disclaimer requirements on broadcast, cable, satellite, and 
radio ads.
    Some have proposed increased disclaimer and/or disclosure 
laws for ads placed on internet platforms and have proposed a 
role for the FTC.
    The interplay between these three regulatory agencies and 
how they each apply the law is something the Oversight 
Committee is uniquely situated to examine, and I hope we dig 
into that today.
    In many ways, this hearing is another example of the IT 
Subcommittee's continued efforts to examine emerging 
technology. There is a level of urgency and importance to this 
hearing that cannot be understated. Since the sun rose on our 
democratic experiment, our adversaries have sought to destroy 
what our forefathers fought for. Our adversaries have always 
sought to use our Nation's unique qualities to undermine our 
robust and resilient democracy.
    But now their tools have changed. As we've seen in recent 
months and weeks, Russia has attempted to influence our 
democratic process, utilizing, among other tools, political 
advertisements on major American social media platforms.
    With every technological advancement, our Nation's 
regulatory posture has evolved to meet the changing needs of 
the day. Today I hope to explore questions related to the need 
for reform of our Nation's political advertisement laws and 
regulations.
    As always, I'm honored to be exploring these issues in a 
bipartisan fashion with my friend and the ranking member, the 
Honorable Robin Kelly from the great State of Illinois.
    It's always good to be with you, Robin.
    I thank my colleagues and witnesses and my fellow citizens 
who have joined us today in person or who are watching online 
for participating today.
    Now it is my honor to recognize the ranking member of the 
Subcommittee on Information Technology, Ms. Kelly, for her 
opening statement.
    Ms. Kelly. Thank you, Mr. Chairman, and thank you for 
holding this important hearing.
    Today we will examine Federal laws and regulations 
governing political advertising just 1 month after Facebook 
revealed that Russians spent $100,000 to buy 3,000 ads to 
influence the 2016 election. Those ads reached 10 million 
Americans.
    These are just the numbers we know of. There are likely 
many more ads that were purchased directly or indirectly by the 
Russian Government.
    U.S. campaign finance law prohibits foreign money in 
elections, but it allows foreign money to purchase issue ads. 
All political ads must carry a disclaimer which discloses who 
the buyer of the ad is, but this requirement does not extend to 
digital ads, like those that run on Facebook.
    The Russian Government exploited these loopholes. In the 
2016 elections, the Russians were able to take advantage of our 
antiquated campaign finance rule and mounted effective 
misinformation campaigns on Facebook, Twitter, and Google. They 
micro-targeted their ads, sometimes posing as community 
activists, with the intention of turning Americans against 
Americans. They sought to sway voters in critical congressional 
districts and swing States with fake news.
    The last time that the Federal Election Commission updated 
these regulations was April 2006, more than 10 years ago. That 
was before the iPhone had been introduced, Twitter was still in 
development, and the Facebook was only for college students. In 
fact, 35 of the 42 members of the Oversight Committee were not 
yet in Congress, myself or the chairman included.
    Much has changed in that time. A Presidential candidate 
effectively used Twitter to wage a successful Presidential 
campaign. It's time we recognize that in today's world 
television and radio are not the only media carrying political 
ads.
    I am confident that we can prevent meddling by Russia and 
other foreign states in our elections while protecting the 
First Amendment rights of Americans. I was encouraged to see 
the FEC recently reopened its 2011 comment period on social 
media political advertising after these Russian meddling 
revelations.
    However, I am still concerned about the systemic problems 
within the FEC that have led to years of gridlock and inaction. 
We cannot continue waiting for action from the FEC. Our 
adversaries have shown they can act quickly and exploit our 
inability to enforce the law.
    According to a recent Marist Poll, 64 percent of Americans 
want regulation on social media advertising and an astonishing 
78 percent of Americans want payment disclosure for political 
advertisements. I couldn't agree more.
    It's clear that Americans want transparency and more 
accountability in social media political advertising. Congress 
and the intelligence community need to fully investigate what 
happened in 2016. I commend the chairman for his leadership and 
willingness to hold today's hearing. Congress must work to 
ensure the integrity of our elections.
    Recently, Senators Warner, Klobuchar, and McCain, and 
Representatives Kilmer and Coffman introduced the bipartisan 
Honest Ads Act. This bill would increase transparency in online 
political advertising by requiring online advertising platforms 
to disclose copies of ads and their targeted audiences. This 
bill is a great start.
    Thank you to our witnesses for being here today. I look 
forward to hearing your thoughts and ideas on how we can 
protect our democracy.
    Thank you, Mr. Chairman. I also ask for unanimous consent 
that Representatives Sarbanes, Kilmer, and Cartwright be 
allowed to join our subcommittee today and participate in the 
hearing.
    Mr. Hurd. Without any objection, so ordered.
    Thank you, Ranking Member Kelly.
    And now I'm pleased to introduce our witnesses. First we 
have Mr. Allen Dickerson, the legal director at the Center for 
Competitive Politics; Mr. David Chavern, the president and 
chief executive officer at News Media Alliance; Mr. Jack 
Goodman, owner of the Law Offices of Jack Goodman; Mr. Randall 
Rothenberg, president and chief executive officer at the 
Interactive Advertising Bureau; and Mr. Ian Vandewalker, senior 
counsel for the Brennan Center for Justice Democracy Program at 
the New York University School of Law.
    Welcome to you all. And pursuant to committee rules, all 
witnesses will be sworn in before you testify. So please rise 
and raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give is the truth, the whole truth, and nothing but 
the truth, so help you God?
    Thank you.
    Let the record reflect that all witnesses answered in the 
affirmative.
    In order to allow time for discussion, please limit your 
opening testimony to 5 minutes, and your entire written 
statement will be made part of the record. And I appreciate 
those written statements. It really was helpful in better 
understanding these issues.
    And for those that are looking for a great outline of these 
questions we're going to be debating here today, I would 
suggest you go to the Oversight website to review those 
statements.
    As a reminder, the clock in front of you shows your time 
remaining. The light will turn yellow when you have 30 seconds 
left and red when your time is up.
    So, Mr. Dickerson, you're up first, and you are now 
recognized for 5 minutes.

                       WITNESS STATEMENTS

                  STATEMENT OF ALLEN DICKERSON

    Mr. Dickerson. Thank you, sir. Chairman Hurd, Ranking 
Member Kelly, distinguished members of the subcommittee, thank 
you for the invitation to appear today on behalf of the Center 
for Competitive Politics.
    The internet has fundamentally transformed the ways in 
which we communicate with one another, and it has become 
ubiquitous. It is on our desk, next to our alarm clocks, and in 
our pockets. Today a large portion of Americans walk around 
every day carrying devices that can instantly connect them with 
anyone in the world from almost anywhere. In fact, in 2014 the 
Supreme Court reported survey data indicating that 12 percent 
of Americans use their cell phones in the shower.
    The internet revolution has allowed Americans to absorb, 
produce, and distribute content without third-party 
intermediaries. They no longer need to see if an editor has 
accepted their letter to the editor or have to bear the expense 
and burden of buying broadcast political ads. As Judge John 
Kane, a Carter appointee, observed when he struck down a 
Colorado campaign finance law, it must be remembered that the 
internet is the new soapbox, it is the new town square.
    In a way that makes the 1980s revolution in desktop 
publishing appear almost quaint, the internet has made us all 
publishers, distributors, and speakers. Every American has the 
opportunity to be Tom Paine, to be Publius or William Lloyd 
Garrison, and one suspects that those authors would approve.
    Accordingly, as the Federal Election Commission itself has 
recognized, the blossoming of online speech and association is 
delicate, and great caution must be taken when burdening the 
speech and associational rights of American speakers.
    That does not mean, as I explain at some length in my 
written testimony, that online speech is a Wild West without 
rules. But it does mean that the current regulatory environment 
strikes a balance in favor of a flourishing civil society.
    Further efforts to license or regulate the placement of 
small-bore issue advertisements, particularly those that do not 
advocate for any electoral outcome, will drive out the poorest 
and least sophisticated online speakers. They will inevitably 
affect not wealthy corporations, which can afford the experts 
to ensure compliance, but rather grassroots activists 
passionate about the issues of the day.
    Moreover, efforts to shift liability from licensed speech 
onto online platforms will simply require those companies to 
pass on those costs onto those same small budget consumers and 
it will create incentives to limit small-dollar ad buys and 
grassroots speakers in favor of sophisticated entities that can 
vet their speech in advance. The result will be an internet 
that is less free, less open, and less available to ordinary 
Americans.
    Of course, the internet also presents challenges. To take 
one example, foreign threats are a valid and a vital concern. 
But they cannot justify regulations whose burdens will fall 
overwhelming on Americans.
    The deterrence of foreign actors is a familiar problem. It 
is accomplished through means of diplomacy, 
counterintelligence, and military readiness. Campaign finance 
law, and in particular the possibility of a fine levied through 
the FEC's civil enforcement authority, adds relatively little 
to that mix. Instead, additional campaign finance rules will 
further restrict access to the internet, the new public square, 
by average Americans and small groups.
    The First Amendment stands against those efforts. It is a 
bulwark against the passions of the moment and a reminder that 
our dedication to liberty and unfettered public debate is a 
strength and not a weakness.
    Nor does technological advancement change the 
Constitution's fundamental guarantees. The First Amendment 
rights to free speech, press, and association are not 
circumscribed merely because they become easier for the average 
American to exercise.
    As always then, when dealing with political speech, speech 
that the Supreme Court has recognized to be at the center of 
the First Amendment's protections, our guiding principle must 
be restraint.
    Thank you. I look forward to the subcommittee's questions.
    [Prepared statement of Mr. Dickerson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hurd. Thank you, Mr. Dickerson.
    Mr. Chavern, you're now recognized for your opening 
remarks.

                   STATEMENT OF DAVID CHAVERN

    Mr. Chavern. Thank you very much, Chairman Hurd, Ranking 
Member Kelly, and members of the Subcommittee on Information 
Technology. Thank you very much for asking me to participate in 
today's hearing.
    I represent the News Media Alliance, a nonprofit trade 
association representing nearly 2,000 news publishers across 
the United States. Our members include some of the largest 
global news organizations, as well as local newspapers focusing 
on the issues that impact the daily lives of citizens in every 
State and congressional district.
    Alliance members share a common mission: to inform society 
in an accurate, thoughtful, and responsible manner. Our member 
news organizations have long made substantial investments in 
high quality journalism to achieve that mission.
    Our journalists and publishers are also held to high 
standards, as detailed in the American Society of News Editors' 
Statement of Principles and the Society of Professional 
Journalists' Code of Ethics. Not only are we potentially liable 
for knowingly publishing something that's false, our very 
brands are built on trust with our readers.
    Because of this, our commitment to truthful and accurate 
reporting has also informed our approach to advertising. 
Publishers have long played an important role in ensuring the 
integrity of the advertisements that appear next to their 
content.
    When it comes to political advertisements, the legal 
responsibility for complying with Federal Election Commission 
rules clearly falls on the advertiser. Nonetheless, news 
publishers have taken an active role in ensuring that proper 
disclosures are made and that all ads placed in our 
publications reflect the honesty and integrity that's the 
foundation of our brands.
    As technology has evolved, publishers have carried forward 
our responsibility to provide accurate content and the internal 
controls that go with that to our digital products. These 
efforts are now much more difficult because of the growth of 
online platforms like Google and Facebook that act as 
intermediaries in the distribution of news content, and 
advertising.
    Publishers previously worked to ensure the integrity of 
both their content and the advertising that appeared next to 
it, but now we have less control over advertising because of 
programmatic delivery of ads through ad tech platforms. These 
challenges are largely caused by the massive growth and 
inability to control an ecosystem that was built with the 
specific intention of not exercising responsibility over the 
integrity of content or the advertising that sustains its 
foundation.
    This is exacerbated by the fact that Google and Facebook 
now control the distribution and monetization of online news 
and information. They are the top two sources of traffic for 
online news publishers. They also collect most of the revenue, 
with Google and Facebook receiving approximately 71 percent of 
all digital advertising dollars in the United States last year, 
which includes political advertising.
    News publishers have worked tirelessly to respond to 
rapidly changing business models. My members now represent some 
of the most innovative and engaging digital publishers in 
existence, and we have created these new businesses without 
compromising the integrity of our journalism.
    It is time that Google and Facebook and other online 
platforms do their part as well. And while they have profited 
greatly from their immense market power, they have yet to 
accept really the full responsibility that comes with that 
position.
    When it comes to political advertising, Congress also needs 
to make the same adjustments that the rest of the economy is 
making and move away from a platform-specific perspective. My 
members deliver their news content wherever their readers want 
it: on desktops, in print, mobile devices, and even wearables. 
Within the bounds of the First Amendment, if Congress sees fit 
to impose requirements on certain kinds of political speech, 
then those rules shouldn't be defined by the delivery platform.
    And as a corollary, Congress should revisit the need for 
current platform-specific requirements to see if they 
appropriately apply to our converged digital world. If Congress 
continues to legislate by platform, then technology will simply 
continue to outpace the rules.
    The Alliance believes that the FEC rules should be updated 
to require disclosures within an internet advertisement to 
identify the sponsor of an ad. Google and Facebook should also 
update their ad-driven business models and the opaque 
algorithms that accelerate the distribution of so-called fake 
news and viral messaging so that high quality, reputable 
content is elevated in search and news feeds. I believe that 
these changes would lead to a healthier journalism industry, a 
better informed citizenry, and a more united country.
    Thank you very much for your time.
    [Prepared statement of Mr. Chavern follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hurd. Thank you, sir.
    Mr. Goodman, you're now recognized for 5 minutes.

                  STATEMENT OF JACK N. GOODMAN

    Mr. Goodman. Thank you.
    Good afternoon, Mr. Chairman, Ranking Member Kelly, and 
members of the subcommittee. My name is Jack Goodman. I am 
pleased to present testimony on political advertising. Although 
I have decades of experience working with broadcast stations on 
political advertising, I do not appear today on behalf of any 
present or former client, and the views I express are entirely 
my own.
    Broadcasters have long been considered America's most 
trusted source of news, far more than any other medium. 
However, broadcast advertising involving politics is subject to 
detailed regulations. These regulations affect what ads 
stations must accept, the information about sponsors they must 
obtain and disclose to the public, and the prices they charge 
for political ads.
    In my experience, stations take their compliance efforts 
very seriously. The FCC's political broadcasting staff is 
exceptionally helpful, but even experienced broadcasters and 
their counsel frequently encounter questions as to which no 
clear answer exist.
    Disclaimer, as I will refer to it, is the information that 
must be included in ads about their sponsor. These are often 
referred to as sponsor ID requirements. Disclosure refers 
instead to requirements for sponsors of political advertising 
to reveal who they are and who determines their policies.
    Both the FCC and the FEC have rules governing aspects of 
both disclosure and disclaimer. Both agencies have sought to 
avoid conflicting regulations. And very importantly, both 
believe that broadcasters and their employees should not be 
required to serve as unpaid government enforcement agents or as 
unofficial private investigators.
    The FCC disclaimer rule for all political advertising is 
that the ad must include a statement saying either ``paid for'' 
or ``sponsored by'' whoever is actually writing the check 
paying for it. These disclaimer rules limit the type of ads 
that stations can sell. Short messages cannot be used because a 
disclaimer will not fit. Thus inflexible disclaimer rules can 
prevent the use of some formats for political speech.
    Turning to disclosure, broadcasters and cable systems must 
maintain public inspection files, including the political file. 
Television station public files are now online, and all 
stations will have their files online by next March. For 
candidate buys, the station is required to disclose the 
candidate, the requested schedule, and the cost of the ads.
    Disclosure requirements for noncandidate ads, which include 
both independent expenditures relating to elections and ads 
about issues or referenda, are more complex. The rules require 
detailed disclosure for any ad that communicates a political 
matter of national importance. The act explains that these 
include references to a legally qualified candidate, any 
election to Federal office, or a national legislative issue of 
public importance, and this definition is, to say the least, 
unclear. For example, is reference to a legally qualified 
candidate intended to encompass issue ads about State and local 
races?
    Determining what is a national legislative issue can also 
be challenging. If Congress is considering a gun control bill 
and a separate gun measure were introduced in a State 
legislature, would an ad opposing the State bill be subject to 
expanded disclosure?
    The requirements that issue advertisers disclose a 
sponsor's officers and the issues in the ad are also difficult 
to enforce. Some ad agencies simply refuse to provide the 
requested information. Stations infrequently receive orders for 
issue ads that do not identify any individual or, even if the 
station insists, are given only one name.
    Stations face similar problems in getting accurate 
information about issues in an ad. The rule is itself 
ambiguous. For example, if there are issue ads next year 
opposing Senator Kaine's reelection in Virginia, is 
``reelection of Senator Kaine'' an adequate description of the 
issue? And what if an ad discusses more than one issue? Does 
each one need to be disclosed?
    Another problem can arise if time is reserved in advance 
and the advertiser does not decide what specific issue to 
address until just before the ad runs.
    Because of these problems, even the most conscientious 
stations have great difficulties in obtaining the information 
that is supposed to be in the political file.
    In conclusion, experience with the FCC's political 
broadcasting rules is instructive. Any new rules applicable to 
broadcasters or other media need to be flexible to be adapted 
to new and varying speech formats.
    And if new disclosure requirements are created, the 
responsibility for collection should not be placed on the media 
but instead on a government agency with authority to interpret 
the rules, investigative resources, and the power to impose 
sanctions for noncompliance.
    Thank you very much.
    [Prepared statement of Mr. Goodman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hurd. Thank you, Mr. Goodman.
    Mr. Rothenberg, you're now recognized for 5 minutes.

                STATEMENT OF RANDALL ROTHENBERG

    Mr. Rothenberg. Chairman Hurd, Ranking Member Kelly, 
members of the subcommittee, thank you for the honor of 
testifying today.
    I would like to get straight to the point. Throughout my 
11-year tenure, the Interactive Advertising Bureau has always 
stood for greater transparency and disclosure in the digital 
advertising supply chain regardless of whether the ads are 
political or commercial, because we believe transparency and 
disclosure are necessary for consumer safety and brand safety. 
So we strongly support efforts by this Congress and the Federal 
Election Commission to clarify, reconcile, and strengthen the 
disclosures required of political parties, candidates, and 
campaigns.
    But, as a representative of the economy's fastest-growing 
and most dynamic sector, IAB also believes that our industry 
itself can go even further to implement supply chain 
protections that would fortify the trustworthiness of digital 
advertising in media, in political advertising and commercial 
advertising alike.
    IAB has a proven track record of taking and implementing 
responsibility across our 650-plus member companies. Together 
with multiple partner associations, we have created some of the 
media industry's strongest self-regulatory mechanisms, programs 
that have been lauded by the White House, the Commerce 
Department, and the Federal Trade Commission.
    Through the Digital Advertising Alliance's privacy program, 
we have provided consumers more control over their personal 
data in digital advertising environments.
    Through the Trustworthy Accountability Group's anti-fraud 
registry and auditing program, we have worked closely with U.S. 
and overseas law enforcement bodies to root criminal activity 
from the ad-supported internet. We were warning about and 
guarding against Russian bot traffic years before it became a 
Washington concern.
    Our long experience with the diverse, innovative, and 
untidy world of advertising and media persuades us that in this 
industry, as in many others, there is a role for government 
regulation. But durable reform can only happen when the digital 
advertising community adopts tougher, tighter, comprehensive 
controls for who is putting what on its sites.
    Since its passage in 1971, the Federal Election Campaign 
Act has mandated disclaimers on all political advertising that 
expressly advocates the election or defeat of a candidate. But 
much of the fake news and fake ads at the center of the current 
storm did not engage in such overt candidate support. There 
were not a bunch of secretive Russian moles purchasing ``Vote 
for Trump'' or ``Hillary for President'' internet banner ads.
    Rather, there were sophisticated posts about social and 
political issues, some of which were made more widely available 
because the operators paid to amplify them in peoples' social 
media feeds. Some of the scandalous messaging was not even 
placed for payment.
    Both social influence advertising and unpaid advocacy fall 
outside the scope of Federal campaign disclosure rules. 
Americans have First Amendment rights to shout on street 
corners, put signs on their lawns, and post on social media 
without registering as political committees or reporting how 
much they spend on megaphones or smartphones.
    There is one more complex challenge in extending current 
disclosure rules to the internet. The traditional regulations 
from the FEC and the FCC require disclosure by campaigns and by 
the media running the ads, for these are the media receiving 
the insertion orders and payments for those ads. In that world, 
the media are in full control. No programming of any sort runs 
on a television station or in a magazine that hasn't been 
vetted by those companies.
    In the digital world, by contrast, every page is cobbled 
together from multiple sources and assembled on the fly inside 
a user's internet browser. Articles, videos, advertising, 
sponsored links, and social commentary come together from 
scores of server computers. Underneath the visible page, scores 
of other suppliers may be contributing measurement, ad 
verification, and auction pricing services.
    Only a portion of the advertising is sold directly by 
publishers. The greater portion is sold and distributed by 
third-party technology companies which do their work via 
automated systems--``programmatically,'' in the industry 
parlance. Legislative proposals that would require websites to 
field expensive disclosure mechanisms create burdens on 
struggling media organizations yet would barely capture the 
illicit political communication which is placed 
programmatically.
    This is why we would like the Congress' support for 
strengthening the self-regulatory mechanisms we already have 
built by which digital media companies police their supply 
chains for bad actors and provide greater transparency into who 
is putting what on their sites. We can monitor the financing 
chain whether the paid support takes the form of conventional 
advertising or whether it shows up in less familiar formats.
    Thank you for the opportunity to appear before you today.
    [Prepared statement of Mr. Rothenberg follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hurd. Thank you, Mr. Rothenberg.
    Mr. Vandewalker, you're now recognized for your opening 
statement of 5 minutes.

                  STATEMENT OF IAN VANDEWALKER

    Mr. Vandewalker. Thank you. Good afternoon. On behalf of 
the Brennan Center for Justice, I thank the Subcommittee on 
Information Technology for holding this hearing. We appreciate 
the opportunity to share with you our recommendations 
concerning Federal political advertisement laws and 
regulations, particularly as they relate to the ability of 
foreign powers to interfere in American elections.
    The Brennan Center is a nonpartisan think tank and advocacy 
organization that focuses on democracy and justice and has 
studied campaign finance for 20 years, working to develop and 
defend effective and constitutionally sound policies.
    There are gaping holes in our regulation of paid political 
ads. In contrast to radio and television, much of the election 
spending on the internet is untouched by key regulations. These 
include the requirements to report spending on mass media ads 
that mention candidates in the period before an election, the 
ban on foreign nationals buying such ads, and the requirement 
that broadcasters retain public files of political ads.
    It's time for this to change. The internet is only going to 
grow in its importance to politics. The $1.4 billion spent 
online in 2016 was almost eight times higher than 2012.
    Failure to subject ads on the internet to the same 
disclosure regime as other media will leave the public without 
key information about who is trying to influence them, and it 
will allow more mischief from foreign adversaries like Russia's 
meddling in 2016.
    The Honest Ads Act introduced in the Senate by Senators 
Klobuchar, McCain, and Warner, and in the House by 
Representative Kilmer, offers a promising framework to ensure 
such disclosure. Congress could also close other loopholes that 
allow secrecy and potentially foreign money, like spending by 
dark money organizations and foreign-owned corporations.
    These steps are surely needed. Investigations into the 2016 
election have revealed a widespread, multipronged effort by the 
Russian Government to alter the course of public debate by 
injecting propaganda and divisive messages into the American 
political discussion.
    As has been mentioned, firms linked to the Kremlin bought 
thousands of online ads on several major platforms that were 
seen by millions of people. The ads have still not been 
released to the public, but they reportedly discuss political 
issues, including messages advocating the election of 
candidates, all while the Russians disguised their identity 
with fake profiles designed to look like they were controlled 
by Americans.
    The intelligence community is confident that Russia will be 
back. And, of course, we must watch for copycats like China, 
North Korea, and even ISIS.
    Most immediately, this challenge to the American people's 
political sovereignty and the First Amendment values of 
transparency and politics requires updating campaign finance 
laws for the internet age.
    Congress should include paid ads on the internet in the 
definition of ``electioneering communications'' from the 
McCain-Feingold bill, which requires disclosure of expenditures 
above $10,000 on ads that mention candidates in certain mass 
media within a specified period. This would have two benefits. 
It would expand the ban on foreign spending, and it would 
increase transparency around online ads, making information 
about who is paying for them publicly available.
    In addition, online platforms should be required to 
maintain public files of political ads. That would essentially 
extend to the internet the Federal Communications Commission's 
requirement that broadcasters maintain a public file of 
political ads.
    And online platforms, along with other businesses that sell 
ads, should be required to make reasonable efforts to prevent 
political ads from being sold to foreign nationals.
    All of these elements are present in the Honest Ads Act.
    Moving beyond the internet, holes in campaign finance 
disclosure rules allow dark money organizations to spend on 
politics without revealing their donors, potentially hiding 
foreign sources of funds. In order to close the holes, Congress 
should enact the DISCLOSE Act.
    Another blind spot in campaign finance results from 
corporations' ability to spend in elections. Congress should 
expand the ban on foreign election spending to domestic 
corporations substantially owned or controlled by foreign 
nationals, as Representative Raskin's Get Foreign Money Out of 
U.S. Elections Act would do.
    Finally, these proposals, as well as existing laws, need 
vigorous enforcement. Yet deadlocks at the FEC have increased, 
and it has passed up chances to strengthen regulations. 
Congress can reform the agency, including by making the number 
of commissioners odd and requiring at least one member to be 
nonpartisan.
    Thank you, and I'm happy to answer any questions you may 
have.
    [Prepared statement of Mr. Vandewalker follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hurd. I'd like to thank all the gentleman for your 
opening remarks.
    And we're going to start the first line of questioning with 
the gentleman from Michigan.
    Mr. Mitchell, you're recognized for 5 minutes.
    Mr. Mitchell. Thank you, Mr. Chair.
    It appears to me that a number of the individuals 
testifying today are conflating general or social ads, opinion 
posts, admittedly political ads, and explicit political 
campaign ads, and conflating them all as being the same thing. 
As Mr. Rothenberg notes, there were a lot of sophisticated 
posts, I'm quoting, about social and political issues, some of 
which were made widely available, by operators, including those 
outside the United States.
    Now, let me ask you, Mr. Chavern, how are we going to 
determine what's fake news and real news? Who determines that 
for us?
    Mr. Chavern. Well, I wouldn't ask the platforms to 
determine it. I mean, fake news----
    Mr. Mitchell. No, that doesn't answer my question, sir. Who 
determines that? If we're going to say we're going to stop fake 
news in some manner in America--and trust me, I'm not a--you 
should see my Facebook posts. It's not exactly a wonderful 
thing to read some days, trust me. So who's going to determine 
what is fake news and stop it?
    Mr. Chavern. No one's going to determine what's fake news. 
There's a pre-existing--I agree with you that conflating 
political ads with bad content is incorrect, and there is a 
preexisting regulatory regime about political ads. Okay.
    And then on, quote/unquote, fake news front, there's a 
twofold problem. People get garbage over their news feeds 
online in the same way that good information is delivered to 
them.
    Mr. Mitchell. I only have 5 minutes. I only have 5 minutes, 
sir. So let me ask the next question for you, which is a number 
of the newspapers that you represent printed a variety of 
articles about the upcoming tax reform and tax cut bill that's 
pending. They quoted a variety of sources as being that the 
rich are going to benefit, that the majority of the tax cuts 
are going to be for the rich, and quoted some sources.
    Did you detail the funding sources of those groups that 
made that quote?
    Mr. Chavern. With regard to those pieces or other pieces, 
you know who to complain to. You can complain to the publisher 
or the reporters. Most of what we're talking about are things 
that----
    Mr. Mitchell. With all due respect, no newspaper in my 
community reported any of those sources. And, in fact, as it 
comes to the tax bill that's pending, the tax brackets have not 
been published. The bill has not been published. Yet somehow, 
if you read the newspapers in my community, they have already 
determined how the tax bill is going to work based upon some 
groups that are funded by, I'll admit, progressive left groups 
that say immediately any tax cut is going to be bad.
    So my question for you is, if you're going to start being 
fair in terms of the information you put out, would you not be 
responsible for posting that this comes from a group that's 
largely funded by--pick whatever term you want to do--would you 
not post what their bias is? Why would you not do that, then, 
if you want to talk about it?
    Mr. Chavern. Congressman, what I would say is that you know 
who to complain to, which is the publisher and the reporters 
whose names are attached to that content----
    Mr. Mitchell. Well, I assure you that hasn't had much 
difference.
    Mr. Chavern. --as opposed to most of what we're talking 
about today.
    Mr. Mitchell. I assure you that it hasn't had much 
difference.
    The distinction I want to create, I would suggest to your 
group, is that there's a difference between--you're responsible 
for the people you employ, their opinions they put forward. You 
know very clearly in opinion ads or opinion columns who the 
writer is. I've done a number of them. You're responsible for 
that contact or the individual that makes their opinion piece 
is responsible for the content. That's clear.
    The difference is on the internet, an internet post, that 
the provider, the intermediary, is not responsible for it. They 
didn't write it. They didn't hire them. They didn't determine 
who they are. Yet you want them held to a standard that's like 
your newspaper when it's an entirely different format.
    Mr. Chavern. I wouldn't assert that, Congressman.
    Mr. Mitchell. You did in your testimony, with all due 
respect.
    Let me move on real quick. I've got just a minute left 
here.
    Mr. Vandewalker, I mean, can you help me understand, then, 
given your perspective on it, we're going to allow the Federal 
Government to determine what is appropriate content in social 
media? We're going to have them determine, well, that's a 
political ad, that's not? We're going to leave it up to a group 
of people to decide that?
    Mr. Vandewalker. Well, no. The idea is to incorporate an 
existing framework that already is out there. The 
electioneering communication is a bright line test. Candidate 
mentions within a certain time period above a certain spending 
threshold.
    Mr. Mitchell. Well, let me stop you, though. Clearly
    the bright line hasn't worked. As Mr. Rothenberg notes and 
Mr. Dickerson noted, the realty is an awful lot of these posts 
are now questioned as influencing the election fell well 
outside the bright line. So who's going to determine that?
    Mr. Vandewalker. Well, again, the bright line keeps you 
from having someone have to determine it. Certainly there are 
things outside of the bright line. But, you know, having a 
bright line and having people understand that they can post if 
it's below a spending threshold protects speech and protects 
the ability for people to talk about legislative issues without 
having a decisionmaker have to make judgment calls every time.
    Mr. Mitchell. Well, let me suggest to the group, and I've 
suggested internally here to other members, our first 
responsibility here is to protect the Constitution. The First 
Amendment is the first amendment for a reason. We need to 
defend that even if some people think it's fake news, because 
one person's opinion on fake news is another person's opinion. 
And the idea that we're going to allow a group of regulators, a 
group of bureaucrats to regulate what we will be able to see in 
terms of social media or other formats offends me, and I will 
certainly oppose that any way I can.
    Thank you very much. I yield back.
    Mr. Hurd. The Honorable Robin Kelly from Illinois is now 
recognized.
    Ms. Kelly. Thank you, Mr. Chair.
    In January of this year, the intelligence community 
released its assessment that Russian President Vladimir Putin 
ordered an influenced campaign aimed at the U.S. Presidential 
election. According to that assessment, and I quote, ``Moscow's 
influence campaign followed a Russian messaging strategy that 
blends covert intelligence operations, such as cyber activity, 
with overt efforts by Russian agencies, state-funded media, 
third-party intermediaries, and paid social media users or 
trolls.''
    Only 1 month ago, as I said before, Facebook revealed that 
a company linked to the Russian Government bought 3,000 ads 
aimed at amplifying divisive issues. These ads are believed to 
have reached 10 million people in the United States.
    To be clear, this is just the ads we know about and people 
they have reached. There are likely to be more advertisements 
bought and concealed due to the nature of digital advertising.
    Mr. Vandewalker, are our current laws and regulations 
sufficient to prevent future influence campaigns by foreign 
actors? If not, why not?
    Mr. Vandewalker. Well, unfortunately, too much of the 
internet is left out right now. We have, as I mentioned, a 
regime that applies to political spending in mass media. And at 
the time that that regime was enacted, the important mass media 
were covered. But now the internet is far more important than 
it was then, and it's only gaining in importance.
    And it should be brought into the regime that exists so 
that spending above a certain--spending thresholds on 
electioneering communication should be covered. Similar 
requirements of disclosures for political ads under the FCC 
rule for broadcasters should be applied to internet ads as well 
when they're paid for.
    Ms. Kelly. Okay.
    Mr. Rothenberg, your testimony characterized this as a 
supply chain issue. What do the members of your industry that 
are a part of that supply chain need to do to prevent this 
issue.
    Mr. Rothenberg. I think they need to participate in both 
our existing programs of industrywide self-regulation that have 
been very successful. We've built them to give consumers 
disclosure and control over their privacy, over their data 
flows in digital advertising environments, and we've built 
another that requires disclosure to prevent fraudulent activity 
from taking place.
    So I think we need much more aggressive participation in 
those, and we would welcome Congress' support for that. And I 
think we can build out from those programs to create better 
conditions for not just disclosure, but I call it supplier 
qualification.
    I mean, basically, if you take a couple steps back, if you 
think about your local supermarket, or even something as large 
as your local Walmart, nothing goes on those shelves without it 
having gone through a series of sluice gates that give everyone 
a bit of assurance that those products are safe.
    We have created mechanisms that can do the same thing, and 
I think we ought to build out those mechanisms and get more 
comprehensive participation in them.
    Ms. Kelly. Thank you.
    Besides lax self-regulation of advertising appearing on 
social media, there's also the proliferation of fake accounts. 
On election day, thousands of fake accounts coordinated 
messages aimed at disparaging Secretary Clinton and Democrats.
    Mr. Chavern, print media still contains a large amount of 
advertising. What are its responsibilities in terms of 
political advertising?
    Mr. Chavern. Well, its responsibilities are those that it's 
traditionally had and upheld, which is to develop a safe and 
trusting environment for its readers.
    Most of our content is now delivered digitally, and the 
biggest things we can do there are let people know where the 
information has come from, what is the source of the 
information. The biggest issue from my perspective with, quote/
unquote, fake news is that it comes out of nowhere, people 
don't where it comes from, and it's fed to them in the same way 
that other legitimate news is fed to them.
    So the best thing that any platform or news source can do 
is be clear about why the news is coming from, what the source 
of it is.
    Ms. Kelly. Just out of curiosity, do you, with print media, 
do you feel like--you said you want to provide a safe and 
trusting. Do you feel like most of your readers feel that way 
or trust what they read?
    Mr. Chavern. I think they do find it is. We have an 
extremely loyal and actually growing audience for our news 
product. The audience for our news product is bigger than it's 
ever been in history across all the platforms. And the fact of 
the matter is people want credible information about the world 
and their community, and they primarily come to us to get it.
    Ms. Kelly. Should digital political ads be held to a 
different standard than political ads in other media?
    Mr. Chavern. No. I come back to the--we're in a platform-
agnostic world where you get information 16 different ways, 
which is all good. But the rules can't be divvied up by 
platform. We're going to need to come up with a set of rules 
that goes with the content, not with the platform.
    Ms. Kelly. What do you think that you can do to do a better 
job helping leaders distinguish between the real news and 
content that comes from questionable sources or the fake news?
    Mr. Chavern. I mean, there's always been crazy conspiracy 
theories. I think we've all got uncles over the Thanksgiving 
dinner who's told us crazy stuff. But that's always been 
different from the newspaper in your driveway or what's on TV.
    What's happened now is that it all gets put in a blender 
and fed to you so that the real news sources and the crazy 
conspiracy theories come the same way.
    You don't want the platforms and anybody else censoring 
content, but you need to give readers more information. You 
need to indicate much more clearly where it's coming from. And 
these algorithms, to which we are all subject to in our lives, 
need to give credit do people who actually pay reporters for 
real reporting.
    Ms. Kelly. Thank you. I yield back.
    Mr. Hurd. Now I'd recognize my friend and colleague from 
the great State of Texas. Mr. Farenthold, you are now 
recognized for 5 minutes of questions.
    Mr. Farenthold. Thank you very much, Mr. Chairman.
    So, Mr. Chavern, Ms. Kelly asked you a question I don't 
think you adequately answered. Are there any Federal Government 
regulations on a political ad placed in the newspaper? Is there 
anything a newspaper has to do by law?
    Mr. Chavern. As the primary responsible party, no, it's on 
the advertiser, is the primary----
    Mr. Farenthold. All right. And you say Federal regulations 
should be platform neutral. So it would also, by extension, be 
the Federal Government should not place any regulations on 
internet platforms as well and treat them the same as a print 
newspaper. Is that correct?
    Mr. Chavern. Right. As long as the regulation around the 
advertisement itself is the same. If there are disclosure 
regulations on whoever they're from, they have to be--whether 
it's online or on your watch, it's--you know, people are 
consuming content in every way. So the requirements, whoever 
they may fall on, should fall without regard to the platform.
    Mr. Farenthold. All right.
    So, Mr. Rothenberg, would you--actually, is there anybody 
on the panel who disagrees with that?
    Mr. Rothenberg. Well, I would just add one kind of coda to 
it. The law has long--and I would defer to Mr. Goodman on this 
too--the law has long recognized that broadcasting is different 
because of the scarcity----
    Mr. Farenthold. Yeah, the scarcity of the airwaves held in 
public trust. I'm an old radio guy.
    Mr. Rothenberg. Right. So with that as a known exception, 
you know, platform agnosticism makes sense, yes.
    Mr. Farenthold. All right. So let's talk a little bit 
about--there's a difference in the way that ads are placed. 
There's been a lot about, you know, who's buying these ads and 
the disclosures. Typically in the newspaper, you actually 
probably talk to a salesman or you talk to somebody on the 
phone. If you're going to buy something on an online platform, 
it's typically done online.
    Let's say I'm Boris or Natasha from Moscow and have a pile 
of rubles I've converted into American dollars. I go buy a cash 
card, Visa, rent a post office box, and ain't nobody going to 
know I'm a foreign national. Do you see that as a problem?
    Yes.
    Mr. Rothenberg. Well, as I said in my testimony, and it's 
not necessarily a popular point of view across my entire 
industry, every company should know to some degree of comfort 
and certainty who it's doing business with. That's a 
fundamental principle whether you're making a car or whether 
you're running a grocery store. So I think that it is not just 
possible but necessary to have some kind of supplier 
qualification and customer qualification safeguards in place.
    Mr. Farenthold. All right. Now, let's go to the other 
problem that people are complaining about in social media. I 
think there's--you may actually have more effect in elections 
on, say, Twitter or maybe Facebook with bots, just posting 
something at no cost. A bad actor may go spend $100,000 hiring 
a programmer to create bots and start posting stuff.
    How do we deal--is there a technological way to detect 
that? I understand that's a problem in the industry worldwide 
dealing with bots. What do you do about that? And how do you 
not get legitimate people who are trying to exercise their 
First Amendment rights wrapped up in that.
    Mr. Rothenberg. Sir, you have just identified the absolute 
total nut of the problem, the dilemma. But it's not unsolvable. 
I don't think you can come up with anything that will ever be 
100 percent foolproof, because the technology is very low 
barrier to entry and will always evolve. It's like a game of 
whack-a-mole. They're always going to find new ways to do 
things.
    But I keep coming back--I'm sorry I sound like a broken 
record. Nobody actually knows what a record is these days. But 
I'm sorry I keep repeating myself. But I think elements of 
supplier qualification, knowing with whom you're doing business 
up and down the supply chain and building that into a 
comprehensive self-regulatory program, will go, and we have 
proof that it goes a long way to reducing the bot traffic.
    Mr. Farenthold. Under some sort of self-regulatory program, 
you're going to have to have the ability of a social media 
platform or website operator, whomever, to reject something. 
Where do you draw the line that they're being treated fairly? 
Let's say I start Blakeoogle, or whatever the new search engine 
is, and I'm going to turn down all ads from liberals because 
I'm a conservative. How do we address that?
    Mr. Rothenberg. Well, first of all, it's your right. You 
can do anything you want and prevent anybody you want from 
coming on. If you want to grow and you want to create a larger 
business, you want to be as open as possible, so you have to 
find a balance. I know that may come off as a little mealy-
mouthed. But there is a balance between using technology 
systems and human oversight to determine the quality of your 
supply chain participants.
    Mr. Farenthold. But how does somebody know then, for 
instance, say my algorithm, to determine what's in a user's 
news feed? I could subtly weight that to conservative messages 
and it might be years before somebody figure that out.
    Mr. Rothenberg. It's true. The same has long existed in 
every other medium as well. There's been political bias. 
Sometimes it's subtle and sometimes it's not so subtle.
    Mr. Farenthold. You find that on cable news, I'm sure. You 
choose your channel, I think.
    Mr. Rothenberg. And you choose your technology.
    Mr. Farenthold. Right.
    Thank you very much. I see my time has expired.
    Mr. Hurd. I now recognize the distinguished gentleman from 
Maryland, Mr. Raskin, for 5 minutes.
    Mr. Raskin. Mr. Chairman, thank you very much. And thank 
you for calling this really important hearing.
    Mr. Rothenberg, you've spoken eloquently about building 
integrity into the supply chain, which then leaves the obvious 
question, what went wrong in 2016 and why are we in this 
situation we're in? Why didn't that happen?
    Mr. Rothenberg. Well, to quote a former Secretary of 
Defense, you can't plan for the unknown unknowns.
    We did very explicitly, going back over the 11, 12 years 
I've been in this job, working with our partner associations, 
the Association of National Advertisers, the four A's, which 
represents the agencies, the Data and Marketing Association, 
built very effective self-regulatory programs for known knowns, 
consumer privacy controls for bot fraud, but nobody had 
anticipated illicit Russian actors.
    Mr. Raskin. Gotcha. So you think you're ready next time, or 
you're getting ready for next time?
    Mr. Rothenberg. Well, you know, I was----
    Mr. Raskin. And intelligence agencies say they're coming 
back.
    Mr. Rothenberg. Oh, they will be.
    Mr. Raskin. As early as 2018.
    Mr. Rothenberg. They will be. But I'll give kind of a 
warning borne of my older profession.
    Back, way back, in my dark past history, I covered politics 
and political media for The New York Times, and I developed a 
principle back in the late '80s that we're always covering the 
last election. The media and the way communications happen are 
always outrunning our thoughts about what's going to happen. I 
don't think anybody anticipated the degree to which Twitter was 
going to be a massive social influence, let alone bots.
    So, yes, I think we can very much be prepared for the bot 
traffic problem, but we don't know what mole is going to pop up 
in that game next time around.
    Mr. Raskin. Gotcha. Thank you.
    Mr. Vandewalker, let me switch to you. You've made what 
seems like the intuitively obvious point that the internet is 
properly analogized to TV and radio in terms of its--in terms 
of the medium, in terms of its intact, in terms of how it 
works. And, therefore, the rules that apply to electioneering 
communications in the TV context, in the broadcast context, 
should also apply in the internet. And all of us are familiar 
with that. We have to say that, you know, we paid for this ad 
and we stand by this ad and all that kind of stuff.
    But what about the problem which has kind of been floating 
around from the beginning of the hearing that it seems as if of 
the hundreds and hundreds of Facebook pages and Twitter 
messages and bots that were put out by the Russians, many of 
them were just meant to sow chaos and to inject poison into the 
American body politic. They would not fall within the 
electioneering communications definition that we've got under 
the McCain-Feingold legislation.
    Can anything be done about that? Or is it, as Mr. 
Rothenberg is suggesting, that, well, we've learned our lesson 
from 2016, and now the public is going to be much more wary, or 
should be, and the media themselves and the internet companies 
themselves should be--try to be on top of this problem?
    Mr. Vandewalker. Right. I mean, I think, as you noted, we 
should close the doors that we know we can close.
    I don't think that's all that can be done. For example, the 
political ad database encompassed in the Honest Ads Act 
actually goes beyond electioneering communications because it 
involves issues of national legislative importance and so would 
create a publicly available record that researchers could use 
to try to piece together what's coming from where, who's being 
targeted, and what are the messages. That could be, I think, 
extremely valuable in understanding what the sort of next 
attacks are and how to respond.
    And then I think there are more things to be done sort of 
outside the realm of campaign finance. And that's going to 
require industry and Congress working together in the ways that 
Mr. Rothenberg has proposed and really figuring out how to get 
on top of this thing.
    Mr. Raskin. Let me ask you another question. The Supreme 
Court in the Bluman decision upheld our traditional ban on 
foreign nationals spending money in U.S. elections. That's not 
covered by Citizens United if they are not a U.S. individual or 
a corporation. However, foreign money could take over domestic 
corporations, as you were suggesting before, and then money 
could be channeled through the Citizens United loophole 
directly into the political system. Is that something that you 
think we can tighten up as well?
    Mr. Vandewalker. Yes, definitely. You know, regulation has 
in many ways not caught up with Citizens United even though it 
was several years ago now. A corporation's ability to spend 
unlimited amounts on politics either directly or through super-
PACs requires dealing with the problem that even a domestic 
corporation can be wholly owned or controlled by foreign 
powers, and that should be tightened up.
    One of the ways would be to, as has been proposed, set some 
kind of percentage, ownership percentage by foreign nationals 
or foreign governments, and say, above this even a domestically 
sited or incorporated corporation can't spend on politics.
    Mr. Raskin. Mr. Chairman, thank you very much.
    I yield back.
    Mr. Hurd. I recognize myself for 5 minutes.
    This question is to everybody on the panel. You can say, 
yes, no. You can elaborate. Just don't take too long if you're 
going to elaborate.
    And, Mr. Vandewalker, I'm going to start with you, and 
we'll go your left, to your-all's right.
    Laws like the Federal Election Campaign Act, McCain-
Feingold, and Supreme Court cases like Citizens United, do 
those refer to and should those cover all political 
advertisements, whether express advocacy or issue advocacy, 
despite the platform?
    Mr. Vandewalker.
    Mr. Vandewalker. Yes. I think our campaign finance regime 
at its heart is about transfers of money designed to influence 
politics, whether that means buying a political ad, writing a 
check directly to a candidate. There are different ways that 
that can play out in detail. But, yes, I think----
    Mr. Hurd. Mr. Rothenberg.
    Mr. Rothenberg. No. Opinion is protected. Issues are 
protected. That is not just a slippery slope. You're already 
three-quarters of the way down that slope. When it's about 
candidates and about actual advocacy for or against the 
candidate, then clearly that falls within the scope of 
existing----
    Mr. Hurd. Yeah, that's what I asked. I asked specifically 
for express advocacy. You should, you know, vote for this guy 
or don't vote for that guy.
    Mr. Rothenberg. Sure.
    Mr. Hurd. Or the issue saying: Call your Congressman if 
this. In any of those types of political speech, should that 
fall under these laws and Supreme Court cases despite the 
medium, whether it's you're writing----
    Mr. Rothenberg. Yeah.
    Mr. Hurd. --whether you're sending a piece of mail in the 
mailbox or it's a digital ad?
    Mr. Rothenberg. Yes, they absolutely can. You've got to 
make certain adjustments for the differences among the media. 
You can't have video rules applying to audio and vice versa. 
But yeah, sure.
    Mr. Hurd. Mr. Goodman.
    Mr. Goodman. I agree that under the Court's precedents it 
doesn't matter the medium. To the extent speech can be 
regulated under those cases, it doesn't matter whether you're--
how you say it.
    Mr. Chavern. Yes, as to express advocacy. You get beyond 
that, you get into tremendous free speech issues.
    Mr. Hurd. My First Amendment expert, Mr. Dickerson.
    Mr. Dickerson. Yes, as regards to the--as to those 
platforms with a caveat, which is that, you know, the amount of 
money that is being regulated is important. The fact that it is 
cheaper to run an ad in some media versus another doesn't 
change the burdens on the speaker and their resources in 
complying with a regulatory regime. So in that sense, if we're 
talking apples to apples, certainly.
    Mr. Hurd. So if somebody--you know, coming from the great 
State of Texas, where I'm in the only competitive district in 
the State, I'm very familiar with all of the political 
advertisements that may or may not be run against me. If 
somebody's running ads against me, there's a public file.
    Mr. Chavern, is that correct?
    Or, I guess, Mr. Goodman. I think you're--let's say--if 
they were doing it on television.
    Mr. Goodman. If they were doing it on radio, television, 
there's a public file. And depending on whether they are your 
opposing candidate or an independent group, different 
information would be in that file.
    Mr. Hurd. And what law governs that?
    Mr. Goodman. It's largely the Communications Act. And there 
were amendments to that act by the McCain-Feingold Act in 2002.
    Mr. Hurd. Mr. Chavern, is that the same for print?
    Mr. Chavern. In terms of the--there's no public----
    Mr. Hurd. A public file. Like, do I know how----
    Mr. Chavern. No, there's not a public file requirement. And 
as a matter of fact, I would take this opportunity, I think 
this is a time where Congress can look and see what 
requirements are needed across platforms. You know, we have 
different requirements now. I think looking forward, you have 
to say what's rational and required. And, for example, do you 
need a public repository when you have the internet? But, you 
know, currently, the rules are different.
    Mr. Hurd. Or should it be available on the internet?
    Mr. Chavern. Right.
    Mr. Hurd. Mr. Rothenberg, you obviously know you're next.
    Mr. Rothenberg. Well, on that one, I think----
    Mr. Hurd. When it comes to specifically digital platforms.
    Mr. Rothenberg. You're talking about the public file?
    Mr. Hurd. Public file, yeah.
    Mr. Rothenberg. Yeah. I think that it's hard under the law 
and under First Amendment history to require the public file to 
reside with different media. It's hard to take something that 
was based on the stewardship of the airwaves, import it over to 
something as open and diverse as the internet.
    But what I don't understand is why you can't place those 
requirements on the campaigns themselves. They know what 
they're spending, they know where they're spending it, they can 
create the public file, and that would be available across all 
media, rather than burdening the end nodes, the edge providers.
    Mr. Hurd. So my first question to all of you all were the 
rules that govern express advocacy should apply to all mediums. 
But we're saying when it comes to the public file and making 
sure that what advertisements are and timing and amounts, that 
should only apply to broadcasters? Is that what I just heard?
    Mr. Rothenberg. Interesting. What I would say is you can 
apply it, but you should place the burden on the campaigns, not 
on the media that are not responsible for selling the ads.
    Mr. Hurd. Mr. Dickerson, can you help me understand any 
First Amendment issues with this notion of a public file?
    Mr. Dickerson. Well, I mean, the most basic is that it's 
not costless.
    Mr. Hurd. It's not?
    Mr. Dickerson. It's not costless. I mean, it's necessarily 
burdening speech in the sense that certain types of advertisers 
have to do things that others don't. We've largely lived with 
that because, you know, as I explained in my written testimony, 
the sort of speech that's being done on broadcast tends to be 
larger amounts of money and more sophisticated actors. There 
are human beings in the mix who are making these determinations 
as to express advocacy.
    Mr. Hurd. So are you saying that I should have to do it on 
television, but somebody else shouldn't to have do it in 
another medium? If somebody is running against me and they 
shouldn't have the same?
    Mr. Dickerson. I personally would question the utility of a 
lot of the exercise in the sense that I'm not sure this 
information is actually used in ways that are useful from a 
First Amendment standpoint. But if we are going to have them, 
we need to be careful to ensure that only the sort of 
sophisticated actors like political campaigns, and that only 
the sort of speech that is clearly about elections is covered.
    Mr. Hurd. Yeah. And I want to make sure I'm clear. When I 
ask questions, it's narrow, express advocacy and issue 
advocacy. Mr. Dickerson, I appreciate that.
    Now I would like to recognize the gentleman from 
Massachusetts.
    Mr. Lynch, you're recognized for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman. And I want to take a 
special moment just to thank you and to thank Ranking Member 
Kelly for holding this hearing. This is incredibly important. I 
want to thank the panel members as well.
    And although Ranking Member Kelly mentioned that it's only 
been a month since Facebook came out and said, yes, the 
Russians did purchase $100,000 on Facebook to influence the 
election, it has been a very long time since Members of 
Congress have been asking to have an investigation on the 
interference of a foreign government, in this case, Russia, 
with our democratic elections. It goes back a long way. And 
this is the first time, Mr. Chairman, you are the first, you 
are the first to hold a public hearing on the hacking of our 
election. And I want to thank you for that.
    I mean, we go all the way back to September of 2015 when 
the FBI actually contacted the DNC to say the Russians are 
hacking your website. And the Democratic National Committee did 
not act promptly on that warning, and so the hacking continued.
    And then in June 2016, it became public of the Russian 
hacking, widely reported. In December 2016, every single one of 
the U.S. intelligence agency heads went public and said that 
with high confidence--this is December of 2016--with high 
confidence they could say that the Russians were hacking our 
election.
    In September of 2016, Senator Feinstein and Representative 
Adam Schiff came forward and they said, based on their 
positions as ranking members of the Intelligence Committees, 
they had information from their hearings that the Russians were 
hacking our elections.
    And, yes, again last month, Facebook came out and said, 
yeah, the Russians purchased, with rubles, $100,000 in ads and 
interfered with our elections.
    So all that happened, and today's the first day of the 
hearing. Today is the first public hearing that we're having on 
the infringements made by a foreign government on the United 
States elections. That's shameful that it took so long.
    And so I'm going to--we're talking about campaigns in 
general, and limitations on campaign advertising, but again, 
I'm going to repeat my request. And my when I say repeat, back 
in December 2016, December 14, I submitted this letter to the 
chairman of our committee, at that time Mr. Chaffetz, asking 
him for a hearing on the Russian interference with our 
election. No response.
    On April 3, 2017, I repeated the effort again. I wrote a 
letter to this committee saying, look, this is the Oversight 
Committee, this is our national election, can we please have a 
hearing on the Russian interference with our election? No 
response.
    Again, I joined--this time I thought maybe it was just me--
so I asked all my colleagues to join with me to a letter to 
Jason Chaffetz, and also the Honorable Bob Goodlatte, chairman 
of the House Judiciary Committee, on May 16, 2017. Could we 
please, could we please have a hearing on the Russian 
interference in our election. It's very, very important to our 
democracy. They hacked the RNC and the DNC, both parties. We 
should be bipartisan about the integrity of our elections. And, 
again, up to today, no action.
    And we're having a hearing today on political advertising, 
but we still haven't had a single hearing, a single public 
hearing on the Russian interference in our election.
    Ironically, today I did learn in Politico that Mr. 
Goodlatte has announced the 11th hearing on the Clinton 
investigation, on the Hillary Clinton investigation, the 
Department of Justice investigation of Secretary Clinton.
    So we've got to get together on this stuff. And I know it 
might be painful for everyone. I actually asked Ms. Wasserman 
Schultz, would she come and testify. Yes, she said, she would. 
It would be difficult, but she would. She would come and help 
us to delve into what actually happened.
    So let me ask you, with my remaining 30 seconds, Mr. 
Vandewalker, you're familiar with the Honest Ads Act that my 
friend Mr. Kilmer and Senator McCain have put out there. It 
seems straightforward. Give me your opinion on that, please.
    Mr. Vandewalker. We think it's--the Brennan Center takes 
the position that it is an excellent framework to apply to 
address the problem of political spending, to close doors on 
foreign spending that can come in and affect elections, by 
bringing the internet into an established framework that exists 
for political spending and other mass media.
    Mr. Lynch. Thank you.
    And, Mr. Chairman, I thank you for your indulgence, and I 
yield back the balance of my time.
    Mr. Hurd. Mr. Lynch, thank you. And I appreciate the kind 
words, but I also want to highlight that there have been a 
number of hearings, open and closed, on the House Permanent 
Select Committee on Intelligence.
    Mr. Lynch. I haven't seen them.
    Mr. Hurd. On the issue of this. But this, again, making 
sure that we're--why we have this--doing this in a bipartisan 
way.
    With that, it's now a pleasure to recognize the gentleman 
from the Commonwealth of Virginia, Mr. Connolly, for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman, and thank you for 
having this hearing.
    I find it a remarkable moment in our democracy when so many 
up here apparently can see and hear no evil when it comes to 
Russian interference with the American election process, 
irrespective of who benefited, but can beat a dead horse when 
it comes to what kind of server was used for somebody's emails. 
I think that's an indictment of the enabling and complicit 
behavior we have seen all too much of since Mr. Trump was 
signed in as President of the United States.
    What could be more sacred than protecting everyone's 
franchise and the integrity of that process in a democracy? And 
when it is interfered with deliberately, strategically, 
targeted by a foreign adversary, not an ally, an adversary, why 
wouldn't we be doing everything in our power on a bipartisan 
basis to make sure that can never happen again? And that is 
really the context of this hearing.
    Mr. Goodman, from a legal point of view, in my State, the 
great Commonwealth of Virginia, when I do a campaign ad, if I 
do one, I'm required by law at the end of it to have a trailer 
saying, I paid for this, this is my campaign ad. It's a ``stand 
by your ad'' kind of requirement in the law. In a sense, it's 
circumscribing my free speech, is it not?
    Mr. Goodman. To some extent it--the courts have so far 
never questioned the ability of the government to require 
disclosure. And with respect to one part of that, which is the 
``I'm Gerald Connolly and I paid for this ad,'' that, at least 
with to respect to the FCC, is something you can choose to do 
or not do, but if you don't do it you're not entitled to the 
candidate discount rate. So it's your choice.
    Mr. Connolly. But the point here is there's precedent for 
circumscribing certain forms of political advertisement.
    Mr. Goodman. No one has ever questioned those particular 
requirements, to my knowledge, in court. But the Supreme Court 
has in all of its cases said that disclosure is largely the 
remedy, and I would think this would be within the scope of 
disclosure.
    Mr. Connolly. Uh-huh.
    So, Mr. Vandewalker, given the fact that there is 
precedent--that is one example, there are lots of other 
examples of circumscribing what otherwise would be free speech, 
tobacco advertising, for example, the government makes a 
producer of a certain product actually add words to its 
packaging it does not want to add, but that are required by 
law.
    So there is precedence. No one wants to infringe the First 
Amendment. But one of our friends on the other side of the 
aisle earlier made it seem as if the choice were gut the First 
Amendment or deal with this problem. And it seems to me those 
are not the only two options in front of us.
    Your comment?
    Mr. Vandewalker. That's right. There are sort of limits on 
the amount of speech in various ways. And it's important to 
recognize that there are First Amendment interests on both 
sides, that is, the listener has an interest in knowing who is 
speaking to them so that they can evaluate that message.
    There's sort of democratic interest in voters knowing who's 
piping up for a candidate, that tells you something about what 
that candidate stands for, holding candidates accountable for 
the financial support that they get, as well as being able to 
evaluate is this message about some political issue coming to 
me from an environmentalist group or an oil industry, and do I 
trust which one of those and taking those sorts of things into 
account.
    Mr. Connolly. I'm going to run out of time. So let me 
just--do Boris and Natasha operating from the dacha in the 
outskirts of Moscow, trying to corrupt American democracy 
through multiple social media and digital ads, do they have the 
unfettered First Amendment rights that anybody else does in the 
United States?
    Mr. Vandewalker. No.
    Mr. Connolly. They don't. Why not?
    Mr. Vandewalker. Well, for a number of reasons. You know, 
constitutional rights, in general, are diminished at most--at 
the very least for foreign nationals not within the United 
States.
    But also it's important to note that in the democracy 
sphere, as noted in the Bluman opinion that was referenced 
earlier, we have this self-governing community. We are 
governing ourselves. And that is why we have a democracy and a 
First Amendment that allows political debate and others do not 
necessarily get----
    Mr. Connolly. And therefore we have a right to protect 
ourselves from Boris and Natasha?
    Mr. Vandewalker. Right.
    Mr. Connolly. Thank you.
    Mr. Hurd. Mr. Krishnamoorthi, you're now recognized for 
your 5 minutes of questions.
    Mr. Krishnamoorthi. Thank you, Chairman Hurd and Ranking 
Member Kelly, for holding this important hearing on our 
political advertisement disclosure laws.
    You know, regardless of our political affiliations, we all 
agree that our elections are the cornerstone of our democracy, 
and transparency and the security of elections must be 
protected at all costs.
    Foreign efforts to undermine both our elections and the 
elections of other Western democracies must be taken seriously. 
This Congress has a responsibility to ensure that all future 
elections are protected against foreign meddling.
    Mr. Vandewalker, we've heard today the suggestion, and 
we've seen in at least written testimony, that Russian internet 
ad buys were just simply too small to be considered a nefarious 
foreign influence, given the actual amount of money spent on 
electioneering ads versus other means of Russian propaganda.
    Would you agree with the idea that any effort by a foreign 
adversary to sway our elections regardless--regardless--of 
whether or not those efforts had a significant impact on the 
outcome of an election are troubling?
    Mr. Vandewalker. Yes. I mean, first of all, we don't know 
the extent. So we haven't seen the maximum figure. But, yes, 
any amount of, again, trying to influence American elections 
contrary to our self-sovereignty is problematic.
    Mr. Krishnamoorthi. You know, Mr. Vandewalker, earlier this 
month Facebook stated that about 10 million people--10 million 
people--have seen these ads. How concerning would you say those 
estimates are? And how does that impact the public's trust of 
our news media and our democratic institutions?
    Mr. Vandewalker. I mean, I think it's very troubling. And, 
again, that should not be considered an upper bound. Facebook 
said that that was the audience that the paid ads reached. 
Those same profiles produced unpaid content that reached 
probably--potentially tens of millions more. We don't yet know.
    And that's one of the problems with not having very much 
disclosure in this area, that we actually still don't know the 
extent of the reach, and we need more information about who's 
trying to sway our political opinion.
    Mr. Krishnamoorthi. So it may have reached tens of millions 
of people, not just 10 million. Through the purchase of 
thousands of ads and the use of Russian-linked accounts or bots 
on various social media platforms, Russia's Government was able 
to manipulate the Internet's open access to information to 
spread lies, inflammatory rhetoric, and other propaganda in the 
hopes of swaying voters both in the United States and France, 
among other places.
    Multiple news reports found that on Facebook alone there 
were hundreds of profiles linked to Russian agents that spread 
false information regarding one of the Presidential candidates, 
as well as issues like immigration, guns, and other divisive 
topics.
    During the French elections, there were similar efforts to 
spread false information regarding one of their Presidential 
candidates.
    Mr. Vandewalker, one final question. In your opinion, are 
we taking as a body in Congress the issue of foreign 
infiltration of our internet sites seriously enough?
    Mr. Vandewalker. I think there's been a lot of discussion 
from--you know, our perspective at the Brennan Center, we value 
transparently, which is crucial in elections always, and is 
especially crucial now to address this foreign influence. We 
certainly think more action could be taken. There are bills 
that have been introduced that would help address this problem.
    Mr. Krishnamoorthi. Do you anticipate that the Russians and 
others are going to continue these efforts in the ramp-up to 
2018?
    Mr. Vandewalker. Everything I've seen from the intelligence 
community indicates that, yes, they are.
    Mr. Krishnamoorthi. Thank you.
    Mr. Hurd. The gentleman from the great State of Washington, 
and a friend, welcome to the Oversight Committee. You're always 
welcome. Love to see you at future hearings. You're now 
recognized. Mr. Kilmer is now recognized for 5 minutes.
    Mr. Kilmer. Thanks, Chairman Hurd and Ranking Member Kelly, 
both for overseeing this important hearing, but also for 
letting me sit in with your subcommittee.
    Our democratic Republic, that system in which we the people 
are the boss, has become vulnerable to foreign actors that want 
to disrupt our system of government to influence electoral 
outcomes. And from the reports that we've read so far, foreign 
actors targeted American voters to have the maximum impact on 
our elections. And that's unacceptable, and that's something, 
thankfully, both Democrats and Republicans have agreed needs to 
be stopped.
    That's why we introduced the Honest Ads Act, myself and 
Congressman Coffman, with input from my good colleague, 
Representative Sarbanes, and Senators Klobuchar, McCain, and 
Warner. And our bill would have the Federal Election Commission 
enact rules for online advertisements similar to what's already 
in place for TV and radio and satellite ads. Those rules 
require disclosure of who's buying what ads where. And that's 
vital if we're going to ensure transparency to affirm the 
public's right to know. And it's important that if we're going 
to--that's increasingly important if we're going to keep 
foreign money out of our politics.
    Just based on some of the comments that have been made, I 
think it's important to acknowledge, requiring disclosure when 
someone purchases a radio or TV ad does not prohibit or inhibit 
free speech, nor does holding those purchases in a public file. 
The Supreme Court has long recognized that commercial speech, 
such as political advertisements, is not subject to the same 
protections as a citizen's comment to speak up in the public 
square.
    I appreciate Mr. Chavern's comment that applying those 
disclosure requirements to internet-based advertisements should 
be no different than what happens with radio and TV media. And 
I also appreciate Congressman Raskin's comment that certainly 
this bill doesn't solve all of the problems that we saw in this 
last election cycle, but this would at least solve the discrete 
issue of the public's right to know whether a foreign actor is 
trying to purchase an ad on the internet.
    So I have a bunch of questions, but I'm going to try to 
limit them.
    First, for Mr. Rothenberg, because you spoke to the 
challenges associated with perhaps the burden of keeping the 
file. If the public file requirement were on the purchaser of 
the ad or on the campaign, I guess my question is, how could 
the government ensure compliance by foreign actors if we went 
in the direction that you suggested previously?
    Mr. Rothenberg. Well, I'm not sure that you could assure 
that no matter whom you put the burden on. It will always be 
difficult if front groups, and then front groups beyond front 
groups, can actually take out the ad. It doesn't matter where 
the burden is placed in that regard.
    But I would say that one of the problems that I have with 
the Honest Ads Act is it's placing the burden in no small part 
on smaller publishers that don't have the financial wherewithal 
to shoulder that burden and when they're not the ones that are 
actually responsible for placing most of those ads.
    Mr. Kilmer. So let me dive into the detail of that with Mr. 
Chavern. The Honest Ads Act would apply an FCC-style political 
file requirement to the largest platforms that sell paid online 
political ads. It currently defines a large online platform as 
those with 50 million unique U.S. visitors per month. So I 
guess I might suggest that that might differentiate from the 
concern that you just raised.
    I guess, Mr. Chavern, my question is, what's your view on 
that figure? Do you have a sense of what types of platforms 
would be captured at that level?
    Mr. Chavern. Off the top of my head, it's hard for me to 
deal with specific metrics other than clearly at this point in 
time there are two large social media platforms that get the 
bulk of peoples' attention and ad revenue. That may change over 
time, by the way, so we will need some metric of size.
    I would come back to one thing Mr. Rothenberg stated that I 
certainly agree with. With regard to the Honest Ads Act, with 
regard to the stated purpose of equal treatment, I think we've 
talked a lot about that today and how there may be value in 
that, we're still studying the implications of all the 
components of it, in particular the repository and database and 
what kind of database--for any platform, by the way--is 
required in this new kind of converged digital age.
    But fundamentally, to answer your question, there's two 
clear candidates right now in terms of online platforms, but 
we'll have to consider the fact that there may be others and 
different ones in the future as there always are.
    Mr. Rothenberg. I can answer that, Mr. Kilmer. It would 
include companies like Hearst, Conde Nast, Meredith, Vox, Vice 
Media, basically a lot of newspapers and magazines that are not 
in a position to take on extra burdens, financial burdens, in 
reporting. Fifty million unique users in the internet world is 
actually not a lot.
    Mr. Kilmer. Thank you, Mr. Chairman.
    Mr. Hurd. The gentleman from Maryland, Mr. Sarbanes, you're 
now recognized for 5 minutes.
    Mr. Sarbanes. Thanks very much, Mr. Chairman, for 
permission to participate today in the hearing. Thank you for 
taking this issue as seriously as you have.
    I also want to thank Ranking Member Kelly for her focus on 
this. And I want to thank my colleague, Derek Kilmer from 
Washington, for his leadership on the Honest Ads Act, which I 
think is a critical step as we prepare for the elections next 
week--next year--although it could be next week. It seems like 
it's coming fast and furious, and that's why we need to get 
ready for it.
    Is there anyone on the panel who thinks that right now we 
have an adequate level of disclosure with respect to spending 
on political advertisements on online platforms to be ready for 
the next election? Does anyone think that disclosure is 
adequate?
    Mr. Dickerson. I predicted you would be the one.
    Mr. Dickerson. I do.
    Mr. Sarbanes. You do. But I don't see anybody else, let the 
record show.
    I don't think it's adequate. I think that if we're going to 
be ready, as you were saying, Mr. Rothenberg, we have got to 
anticipate what comes next. It's hard sometimes to do that. But 
I would think putting a baseline regime of disclosure in place 
with respect to what is happening online would be one thing 
that we could do to be more ready than we are now.
    And so we're obviously going to encourage our colleagues to 
continue to push very hard for this kind of disclosure, which, 
as the hearing has indicated, is not out of line with the 
expectations that have been created with respect to the 
broadcast industry over time. And the public, I think, has 
indicated through polling data that it wants to see this kind 
of information as well.
    I'm curious what you would say about whether advertisers 
should be allowed to make money from foreign election 
interference. I mean, how would you answer that question, Mr. 
Vandewalker? Do you think that advertisers should be able to 
make money on foreign interference in our elections?
    Mr. Vandewalker. Well, I mean, I think within reason we 
should be preventing foreign interference in our elections, and 
it logically follows from that that companies shouldn't be able 
to make a profit from it.
    Mr. Sarbanes. Any others?
    Mr. Goodman. Yes. I think the question really needs to be 
refocused, because the issue is not whether, for example, 
somebody makes money off an ad, but whether an advertiser 
that's foreign is permitted to participate in U.S. elections. 
And I think that is one of the issues that if there are going 
to be further disclosure requirements needs to be addressed, 
which is that online platforms, like broadcasters, have no 
enforcement authority.
    If Boris and Natasha, who have been mentioned before, they 
say, yes, we're U.S. citizens or we have a U.S. company, either 
an online platform or a newspaper or a TV station have no way 
really to determine whether that's accurate. And that's why I 
think this has to be a government responsibility.
    Mr. Sarbanes. But I do think it goes to the question of 
what kind of expectation we should have from the advertisers 
themselves, what sort of responsibility they should carry to 
promote this kind of disclosure, to keep track of these kinds 
of things.
    I don't think, as you indicated, Mr. Rothenberg, that we 
can, for example, rely on campaigns to enforce these standards. 
I don't think that's realistic. I think the advertisers or the 
platforms that are receiving these purchased advertisements are 
in a better position to do that. It may not be easy out of the 
gates to construct these new regimes or algorithms, but they 
can construct algorithms for just about everything else in the 
world, they should be able to do this in order to enhance 
disclosure.
    I'm going to run out of time, so I wanted to ask one other 
question of you, Mr. Vandewalker. And that is the FEC takes a 
lot of hits these dates, and in certain regards it is not 
functioning in the way it should. But there are some things 
that the FEC is able to do pretty well. It collects information 
that's submitted by campaigns every quarter. It digests that 
and it produces it in a very accessible way on its online 
platform so people can go there and get information about what 
is happening in terms of the spending on the campaigns 
themselves.
    So do you have any reason to think that the FEC would not 
be able to handle the responsibility of administering what's 
being envisioned under the Honest Ads Act in terms of 
information being collected, public files being produced, that 
being put in a place where the public can see it easily? Isn't 
that a function that the FEC could undertake at this point?
    Mr. Vandewalker. Yes. As you mentioned, that's one of the 
things that the FEC is actually good at. And they recently 
revamped the public face of those disclosures, making them more 
searchable online. And certainly policies could be developed in 
cooperation with social medias of the world who are very good 
at putting things online, I think, to make it all feasible and 
usable.
    Mr. Sarbanes. Thank you. I yield back.
    Mr. Hurd. Thank you. I recognize myself for another 5 
minutes.
    Mr. Dickerson, I want to follow up on something Mr. 
Vandewalker said. Does a Russian in Russia have First Amendment 
rights in the United States?
    Mr. Dickerson. A Russian in Russia certainly has fewer 
First Amendment rights than an American or than a Russian would 
have on American soil.
    Mr. Hurd. Gotcha.
    Mr. Goodman, can the Government of Russia buy an ad saying, 
``Come to Moscow'' on broadcast television?
    Mr. Goodman. There is no restriction which prohibits a 
foreign government from buying an ad. I think there would be a 
restriction on them buying an ad, which would be explicit 
advocacy, because that would be illegal under U.S. election 
laws.
    Mr. Hurd. So the Russian Government, if they wanted to buy 
an ad on broadcast that said, ``Don't send weapons to 
Ukraine,'' what would govern that?
    Mr. Goodman. There are disclosure requirements, and I'm 
certainly no expert in the disclosure requirements with respect 
to foreign participation in U.S. media. But other than that, 
assuming they comply with those disclosure requirements, there 
is no prohibition on their speaking in the U.S.
    Mr. Hurd. Does the Foreign Agent Registration Act have 
anything to do with that disclosure or that purchase of----
    Mr. Goodman. That's exactly what I was referring to.
    Mr. Hurd. Gotcha.
    Mr. Chavern, can the Russians run a political advertisement 
in the newspaper saying, ``Don't send guns to the Ukraine''?
    Mr. Chavern. I believe it would not count as express 
advocacy, and I----
    Mr. Hurd. If they said, ``Call your Congressman and tell 
them don't support sending guns, American guns to the 
Ukraine''?
    Mr. Chavern. Once you get into issue advocacy, I have the 
same--I would have the same question as Mr. Goodman about 
foreign agent----
    Mr. Hurd. Mr. Rothenberg, can the Russians run a digital ad 
that tells you to call your Congressman and tell them not to 
support sending American guns to the Ukraine?
    Mr. Rothenberg. Mr. Chairman, I'm not an expert on that, so 
I cannot answer that question.
    Mr. Hurd. Mr. Vandewalker, do you have an opinion on either 
one of those three scenarios that I just brought up?
    Mr. Vandewalker. You know, so one of the things that could 
get at that is the political file requirement, which would, 
again, not be prohibition, but would be----
    Mr. Hurd. So let me ask you, is there some piece of law, 
court case, that regulates whether the Russian Government could 
buy an ad on print, broadcast, or digital that says, ``Call 
your Congressman and tell them to not send guns to Ukraine''?
    Mr. Vandewalker. Not that I'm aware of.
    Mr. Hurd. And just for the record, I'm supportive of 
sending guns to the Ukraine. I just want to make that clear.
    Mr. Vandewalker. Right. It could be an electioneering 
communication if it were 60 days within an election and 
mentioned someone running for reelection.
    Mr. Hurd. Mr. Dickerson, your opinion on one of those three 
scenarios.
    Mr. Dickerson. My opinion is--I'm pleased to finally hear 
the Federal--the Foreign Agent Registration Act raised because 
it basically is a political file. I mean, this is a law that 
requires essentially any_ And it's a very broad definition of 
political public communication at very low dollar thresholds to 
be filed with the Department of Justice, to have physical 
copies of the ad filed with the Department, to have a 
disclaimer on the front of the ad saying it's being paid for by 
a foreign government.
    I mean, I think a lot of the tragedy of this conversation 
is that in our efforts to get at Russian activity we're 
ignoring the tool that's directed at foreign actors and instead 
trying to expand laws that by definition impact American 
political speech.
    And given the scope of the existing FARA, and the fact that 
it could be expanded if it was this committee's interest to not 
only foreign agents but also foreign principals, that strikes 
me as a much narrower, much more constitutionally defensible 
way of building the political file that's being discussed here, 
precisely because it's targeted at foreigners and not 
Americans.
    Mr. Hurd. So right now your understanding of FARA is that 
it's for agents of the government, it doesn't include 
principals of the government?
    Mr. Dickerson. That's my understanding.
    Mr. Hurd. Mr. Raskin, you're now recognized.
    Mr. Raskin. Mr. Chairman, thank you very much. I'm going to 
follow up on your questions.
    Listening to the testimony, I recognize that what's at 
stake here really is the integrity of liberal democracy in our 
century. You know, Vladimir Putin and his agents understood 
they could not compete with us militarily, they could not 
compete with us economically, and they could not compete with 
us politically on a fair stage because they've got nothing to 
sell but tyranny and despotism and kleptocracy.
    But he detected a little bit of an Achilles' heel in the 
United States, which is our openness, and specifically our 
openness, our freedom of expression on the internet, which 
might be the most wide open of all of the forums in media that 
we have. So he took advantage of that.
    And I think everybody here agrees that we were caught 
sleeping. And there were hundreds of thousands of dollars, 
perhaps millions of dollars spent to invade every nook and 
cranny of the internet in order to inject poison into our 
political process and to try to gerrymander the outcome of our 
election.
    Now, let me ask this. First of all, can we do this in 
reverse? For example, would we be allowed to spend whatever 
money we wanted, either as a government or private entities in 
the United States, in Saudi Arabia, in Iran, in Russia, in the 
Philippines? Do the authoritarian societies allow people from 
the liberal democracies to access their public with such ease? 
Does anybody have an answer to that?
    Mr. Rothenberg.
    Mr. Rothenberg. Well, yes, for generations we did that 
through the Voice of America and various other arms of the 
United States Government, and did it very effectively.
    Mr. Raskin. But what about the purchase of TV ads in Saudi 
Arabia or Iran or Russia, the purchase of radio ads? I 
understand there is the Voice of America, which is announced, 
which is disclosed, and it clearly comes from the United 
States. But what about the kind of surreptitious penetration of 
the public consciousness that took place in 2016 here?
    Mr. Rothenberg. Well, history shows us that we have all 
played games in each other's countries with each other's media 
for generations. I'm not defending it or decrying it, I'm just 
stating a fact that I think we're all aware of.
    Mr. Raskin. Yeah. And there's no doubt that the U.S. 
Government has intervened to destabilize democracies, as in 
Chile, as in Iran, and that's something, obviously, that real 
small ``d'' democrats oppose and have tried to stop in our 
history.
    But perhaps we need some kind of global understanding about 
giving the people of every society the right, first, to free 
and fair elections in democratic government, and then the right 
to pursue those elections without covert interference by 
foreign nations.
    Well, let me ask this question. The FECA makes it unlawful 
for any foreign national directly or indirectly to make a 
contribution or donation in connection with a Federal, State, 
or local election. That doesn't use the language of express 
advocacy, it says any contribution or donation in connection 
with an election.
    Would it be within the constitutional authority and 
province of Congress to ban--and I think perhaps the chairman 
was asking this question too--not just express advocacy 
spending by foreign nationals, corporations, and governments, 
but also any political advertising taking place during the 
election season?
    Would we have the authority to do that to foreign nationals 
on the theory that they don't enjoy the First Amendment rights 
of the American people, or indeed of, I think, even permanent 
residents of the country, people who are here and our part of 
the country?
    Does anybody have an opinion on that?
    Mr. Dickerson. I think the problem, Congressman, is less 
the matter of the First Amendment than a matter of vagueness. I 
mean, as I know you're aware, the Supreme Court in Buckley said 
that precisely that language was unconstitutionally vague in 
the sense that actors couldn't, as a matter of due process, 
determine what was and wasn't covered. The danger with these 
sort of words like----
    Mr. Raskin. Well, we've drawn the line between express 
advocacy and then just generalized political advocacy. Because 
the line exists, we've got two separate categories, and our 
campaign laws apply for American citizens on one side but not 
the other, but perhaps they could apply on both sides for 
people or entities, foreign governments and corporations that 
decide they want to get involved in our elections. What do you 
think about that?
    Mr. Dickerson. I think we're already there. I mean, express 
advocacy is banned by foreigners and foreign governments.
    Mr. Raskin. But we want to go beyond that to all political 
spending during our campaigns. For example, if it turns out 
that the Russian Government cleverly got itself involved with 
alt-right activities, it tried to get involved with Black Lives 
Matter, it was doing everything possible to exacerbate tensions 
in our country, which we live with to this very day.
    Mr. Dickerson. I would think the Department of State would 
have views on this. From the point of view of the First 
Amendment, that is probably permissible provided that things 
are defined in a way that is understandable. And, frankly, 
Congress has a bad track record on that.
    Mr. Raskin. And, of course, they have the right to speak 
voluntarily and freely through public platforms where they're 
announced, and they've got a right to do a Facebook page, which 
is not the spending of any money.
    But it just seems to me that when we talk about the 
expenditure of money in the political system, that's where it 
gets to be very dangerous because you can't rerun an election. 
And one contaminated election can take a country down a very 
dark road.
    I yield back to you, Mr. Chairman.
    Mr. Hurd. Thank you.
    I recognize myself for another 5 minutes.
    This set of questions is for Mr. Chavern, Mr. Goodman, Mr. 
Rothenberg.
    We'll start with you, Mr. Rothenberg. How much does it cost 
a month to host a website.
    Mr. Rothenberg. Oh, my goodness. I mean, you can do it for 
under $20 a month.
    Mr. Hurd. Mr. Goodman and Chavern, would you agree about 
the cost?
    Mr. Chavern. [Nonverbal response.]
    Mr. Goodman. [Nonverbal response.]
    Mr. Hurd. Are you familiar with WordPress.
    Mr. Rothenberg. Yes, certainly. I had a blog on WordPress.
    Mr. Hurd. How much does that cost?
    Mr. Rothenberg. Right now I don't know. I think you can 
actually go up on WordPress for--there might be a free option.
    Mr. Hurd. I believe there is a free option.
    Mr. Rothenberg. Yeah.
    Mr. Hurd. When people do advertising on a digital platform 
they fill out some form, right, upload the copy, that form gets 
stored somewhere, and that gets pushed out, right?
    Mr. Rothenberg. Essentially. It's a good summary.
    Mr. Hurd. So there's an electronic record of it?
    Mr. Rothenberg. That I can't speak to. I don't know how 
evanescent those are or are not.
    Mr. Hurd. But could there be an electronic record?
    Mr. Rothenberg. I imagine, yes.
    Mr. Hurd. Could it get exported to an Excel document or a 
Google Sheet?
    Mr. Rothenberg. I imagine, yes. It doesn't sound like it 
would be that difficult.
    Mr. Hurd. And if you already own a website, publishing an 
Excel document or a Google Sheet, how much does that cost?
    Mr. Rothenberg. Give me the question again, sir.
    Mr. Hurd. If you already own a website, right, how much 
does it cost to publish a Google Sheet or an Excel document to 
that website?
    Mr. Rothenberg. If I already have, say, a WordPress site 
and I want to--I mean, you can upload that relatively simply, 
it's di minimis, yes.
    Mr. Hurd. Zero cost, right?
    So I'm curious, Mr. Goodman and Mr. Chavern, would you 
disagree with any of those or would you agree with Mr. 
Rothenberg's comments in all that?
    Mr. Chavern. Yes.
    Mr. Hurd. So I'm curious to know what burden we're putting 
on someone to publish the information of who's advertising?
    Mr. Rothenberg. Well, first of all, the ads that are going 
onto my WordPress blog, if I've enabled it to take advertising, 
are not being bought--not being sold by me directly. I have 
nothing to do with it, it's all an automated----
    Mr. Hurd. So what is the burden that we are putting on the 
person that is displaying that ad on your individual website?
    Mr. Rothenberg. Well, one of my concerns, as I expressed 
before, with the way the Honest Ads Act is worded, it would put 
the burden on me to keep those records.
    Mr. Hurd. So what is the burden?
    Mr. Rothenberg. Even though I have no involvement in the 
actual sale or distribution of that advertising.
    Mr. Hurd. And I know it's hard to address everyone, right, 
and I get that, but are they expunging all that information, 
the people that are collecting the advertising dollars on 
what's being promoted?
    Mr. Rothenberg. Presumably they have it, but you're asking 
me to keep the records, and I don't have any of those records.
    Mr. Hurd. So the person that has the record, what burden 
would it be for them to publish the details of that?
    Mr. Rothenberg. That I don't know. It depends upon who it 
is and where they are in the system.
    Mr. Hurd. Mr. Goodman, do you have an opinion when it comes 
to broadcasting?
    Mr. Goodman. I think there are two questions. One is, if 
you ask who is paying for the ad, that is what broadcasters 
already do. There is a considerable amount of complaint that 
that isn't really that informative. In other words, if it's 
Citizens for Good Government who actually that is, it's not 
clear.
    Mr. Hurd. And the broadcaster goes back and asks and says, 
``Who's your counsel?'' or, ``Who's your executive committee?'' 
and they don't give you an answer. I get that. I'm not asking 
for enforcement. I'm asking, what burden is there to publish 
the information, the data that is already in hand?
    Mr. Goodman. The information is currently uploaded to 
websites that are really run by the FCC, and it has proven not 
to be a very significant burden to most TV stations.
    Mr. Hurd. Gotcha.
    Mr. Chavern.
    Mr. Chavern. The one thing I'd note is in the website 
example you gave, obviously the website viewed by you would 
have some sets of ads. If I viewed the same website, they might 
likely have a totally different set of ads served 
programmatically by the ad-tech platforms.
    So I think you also have to take into account volume. And 
again, these programmatic systems have no human touch related 
to them. And the volume of ads and deciding, for example----
    Mr. Hurd. It is the same amount of effort to publish a 10-
line Excel document or spreadsheet as it is to publish a 10-
million line? I know the answer.
    Mr. Chavern. Okay.
    Mr. Hurd. Same level of effort, because you're not 
collecting it. If you're collecting the information 
automatically, right? So to display it, there's no difference 
in displaying 10 lines versus a million lines.
    Now, you may have to pay for the size of the file. But I'm 
getting at I keep hearing over and over the burden to publish 
data that is already in hand. You already have the data. What's 
the burden?
    Mr. Rothenberg. It's where you're placing the burden. If 
you're placing the burden on a place that----
    Mr. Hurd. On whoever has it. Who's collecting it.
    Mr. Rothenberg. Okay. That depends upon how you write the 
requirements.
    Mr. Hurd. Mr. Dickerson, do you have any opinion in all of 
this exchange?
    Mr. Dickerson. No.
    Mr. Hurd. Mr. Vandewalker?
    Mr. Vandewalker. No. I'm excited to hear the answer.
    Mr. Hurd. Parting wisdom. I don't have any time left, but 
I'll extend some of that time to you all.
    Ten seconds, Mr. Vandewalker, what is it that you wish this 
committee would know about this topic that you haven't been 
able to address.
    And that's the same question for all you all.
    Mr. Dickerson, it better be good because you're going to be 
last, okay? And you don't have to saying. If the answer is we 
got it, we got it all.
    Mr. Vandewalker. I think the committee got it all from our 
perspective.
    Mr. Hurd. Great. Thank you.
    Mr. Rothenberg.
    Mr. Rothenberg. I think industry self-regulation, managed 
industry-wide, with tough and tight enforcement, can actually 
go further than this Congress can go in enforcing the rules.
    Mr. Goodman. I think that whatever you do, it needs to be 
clear so that the rules are understandable and the 
responsibility for enforcement is also well-established.
    Mr. Chavern. Let's take this moment to figure out what 
rules about political advertising makes sense, no matter what 
the platform. And that doesn't mean being taught by what 
happened before. Let's take this moment to say what really 
makes sense and what do we need.
    Mr. Hurd. Mr. Dickerson, don't let me down.
    Mr. Dickerson. The courts have allowed us to establish 
disclosure requirements, record-keeping burdens, things of this 
nature, only insofar as the underlying speech is directed at an 
election. And, to the extent that we are toying with using 
foreign intervention, which we can separately regulate, as an 
excuse to undue that burden, I think we are wading into 
territory that is far less charted than some of the testimony 
has suggested.
    Mr. Hurd. Well, gentlemen, I want to thank you all for 
being here today and appearing before us.
    The hearing record will remain open for 2 weeks for any 
member to submit a written opening statement or questions for 
the record.
    If there's no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 3:55 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
